                                      SOCIAL SECURITY
MEMORANDUM

Date:   May 5, 2011                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Office   of Disability Adjudication and Review Cost Allocation Process (A-15-10-20150)


        We contracted with Grant Thornton LLP (Grant Thornton) to perform four reviews
        related to the Social Security Administration’s (SSA) Cost Analysis System (CAS) and
        Cost Assignment Methodology. The attached final report presents the results of Grant
        Thornton’s review of the data reliability of the Office of Disability Adjudication and
        Review (ODAR) cost allocation process. Grant Thornton’s objectives were to:

        1. Determine whether the data collected and used by SSA management in the ODAR
           cost allocation process were valid and accurate.

        2. Review and test internal controls over the systems and applications used by ODAR,
           which performs its own cost allocation calculation, that ODAR ultimately
           incorporated into the Cost Analysis System.

        3. Review the General Computer Control environments applicable to ODAR.

        4. Review and test ODAR’s main processes to determine whether they were accurate,
           complete, and reliable, including, but not limited to maintaining structure/support
           data, processing pure data, processing report requests, and initializing a new fiscal
           year.

        5. Review and test ODAR’s data inputs to CAS to determine whether they were
           accurate, complete, and reliable.

        6. Review and test various ODAR cost allocation data output reports, including reports
           that reflect data after input, after allocation, and after distribution, at various levels of
           detail, which ODAR regularly disseminated, to determine whether they were
           accurate, complete and reliable.
Page 2 – The Commissioner


We are aware that SSA does not intend to provide comments until we issue the last of
the four CAS reports. As such, please provide within 60 days of release of the final
CAS report, The Social Security Administration’s Cost Allocation Methodology Review
(A-15-10-20152), a corrective action plan that addresses each recommendation. If you
wish to discuss the final report, please call me or have your staff contact Steven L.
Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                    Patrick P. O’Carroll, Jr.

Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  OFFICE OF DISABILITY ADJUDICATION
             AND REVIEW
      COST ALLOCATION PROCESS


      May 2011     A-15-10-20150




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:      April 12, 2011

To:        Inspector General

From:      Grant Thornton, LLP

Subject:   Office of Disability Adjudication and Review Cost Allocation Process (A-15-10-20150)


           OBJECTIVES
           The objectives of the Office of Disability Adjudication and Review (ODAR) Cost Analysis
           System (CAS) review were to:

           1. Determine whether the data collected and used by SSA management in the ODAR
              cost allocation process were valid and accurate.
           2. Review and test internal controls over the systems and applications used by ODAR,
              which performs its own cost allocation calculation, that ODAR ultimately
              incorporated into the Cost Analysis System (CAS).
           3. Review the General Computer Control environments applicable to ODAR.
           4. Review and test ODAR’s main processes to determine whether they were accurate,
              complete, and reliable, including, but not limited to maintaining structure/support
              data, processing pure data, processing report requests, and initializing a new fiscal
              year.
           5. Review and test ODAR’s data inputs to CAS to determine whether they were
              accurate, complete, and reliable.
           6. Review and test various ODAR cost allocation data output reports, including reports
              that reflect data after input, after allocation, and after distribution, at various levels of
              detail, which ODAR regularly disseminated, to determine whether they were
              accurate, complete and reliable.

           BACKGROUND
           The Social Security Administration (SSA) must take care to be a good steward of the
           four Trust Funds for which it provides administrative support. They are the Retirement
           and Survivors Insurance (RSI) Trust, Disability Insurance (DI) Trust, Hospital Insurance
           (HI) Trust, and Supplementary Medical Insurance (SMI) Trust. To help meet this
           stewardship objective, the Commissioner of Social Security established a cost allocation
           process in July 1973.
Page 2 - Inspector General

The Commissioner established the cost allocation process based on the policy that
administrative costs for all Trust and general fund programs administered by SSA and
for reimbursable work performed by SSA for outside organizations are to be allocated
based on cost-sharing principles.

A central part of SSA’s cost analysis program is CAS, SSA's administrative cost
allocation system. SSA uses CAS to allocate administrative costs from SSA’s
component organizations to Trust and general fund programs administered by SSA and
for reimbursable work performed by SSA for outside organizations. CAS is a computer-
based system that tracks workload, workyear, administrative cost, and related data for
SSA and its major component organizations.

ODAR is one of those major component organizations whose costs are input into CAS
for allocation to program activities. ODAR is responsible for holding hearings and
issuing decisions as part of SSA's process for determining whether a person may
receive benefits. Headquartered in Falls Church, Virginia, as of November 1, 2010,
ODAR comprised 10 regional offices, 154 hearing offices (including 5 satellite offices),
and 4 national hearing centers.

ODAR directs a nationwide field organization of administrative law judges (ALJ) who
conduct impartial hearings and make decisions on appealed determinations involving
retirement, survivors, disability, and Supplemental Security Income (SSI) payments.
Through the Appeals Council, ODAR also reviews ALJ decisions on appeal by
claimants, or on its own motion, and issues the final Agency decision 1 on such cases.

ODAR’s process for inputting CAS information is similar to that used by the other SSA
components. However, there are two major differences in ODAR’s pre-allocation
processing. First, ODAR does not have a work measurement system that directly links
to CAS. Instead, ODAR collects work measurement information from individual
systems and reports, such as the

    •   ODAR Training Information System;
    •   Appeals Review Processing System (ARPS);
    •   Case Processing Management System (CPMS);
    •   Data Mart Operational Data Store (Data MartODS);
    •   Payroll Operational Data Store (PayODS); and
    •   District Office Workload Report.



1
 Agency decisions may be appealed by filing an action in a Federal district court. See 20 C.F.R. §§
404.981 and 416.1481.
Page 3 - Inspector General

ODAR then compiles the data into a Microsoft Excel spreadsheet, which it sends to the
Office of Cost Analysis and Support Systems (OCASS) to reformat and upload into
CAS. ODAR’s pre-allocation process occurs monthly and is manually intensive,
involving the linking and uploading of several datasheets, as well as several informal
quality checks before final submission into CAS.

Second, unlike other SSA components, ODAR does not conduct workload sampling to
determine work hours. Rather, ODAR applies standard time values to the workload
count information from the CPMS and the ARPS to determine the work hours by
workload. A “standard time” is the predetermined time that a certain activity is expected
to take. These total work hours are then converted to workyears and compared with
control workyear figures that are provided by OCASS. Control workyears are actual
employee workyears consumed during the operating period. They are reported, by
component, as recorded in the Agency’s payroll data system, PayODS, for the period
being calculated. Any difference between the calculated workyear and control workyear
figures is then prorated and reassigned to the workloads. Typically, this difference is
less than 1 percent and considered insignificant.

This audit included assessments of the ODAR cost allocation process related to the
data collected and used by SSA management, the internal controls over the systems
and applications, the general computer control environments, the main processes
conducted, the data inputs, and the data output reports.

RESULTS OF REVIEW
OBJECTIVE 1: Determine Whether the Data SSA Management Collected and
Used in the Cost Allocation Process Were Valid and Accurate

We met with personnel from the ODAR Budget Office and OCASS to gain an
understanding of the monthly preparation and submission process. Each month,
analysts from the ODAR Budget Office prepare a CAS Input Summary Report. Data
from the input report are derived from current ODAR workload reports and payroll data.
ODAR enters payroll and workload data into spreadsheets to calculate total direct
workyears by category. Categories are a combination of workload outputs and various
personnel and non-personnel costs, such as “other objects” and “indirect costs.” ODAR
records workyear information in the CAS Input Summary Report and sends it to OCASS
via SSA email. OCASS personnel then convert the ODAR data into an uploadable file
via an automated Microsoft Excel macro and upload the new file into CAS.

We selected three CAS Input Summary Reports from March, June, and August 2010
and tested them to determine that data used in the cost allocation process were valid
and accurate. Testing consisted of ensuring the spreadsheets used were calculating
Page 4 - Inspector General

total direct workyears accurately; and that the data necessary for these calculations –
payroll and other costs, control workyears, and workload counts – agreed with valid
payroll and workload information.

Our review of the data inputs found that, during the first quarter of Fiscal Year (FY)
2010, ODAR conducted an internal Cost Reporting ODAR Workgroup (CROW) study of
the standard time values used in its workload measurement process. ODAR managers
requested the study because they believed that some of the standard time values they
were using in their cost allocation process were outdated and inaccurate. The original
standard time values were developed in the early 1980s, and the specific details
regarding the rationale and calculation of the standard time values were unclear, as
there is no documentation on their development, and individuals who created them have
retired.

The CROW study found that ODAR was overestimating ALJ travel time as well as the
time it took to conduct a hearing. The original standard time values were high because
they had not been adjusted for 20 to 30 years to account for procedural, business, and
technological changes (for example, process improvements, software/computer
systems upgrades, and the introduction of video hearings) that significantly reduced the
hearings procedures and processing times. Based on the CROW study results, ODAR
reduced the standard time values for hearings by an average of 16.22 hours (see the
table below for details).

                          Original Values –        CROW Values –
 Program Activity                                                           Difference (Hours)
                          Hearings (Hours)         Hearings (Hours)
RSI                              36.23                     18.61                    17.62
DI                               35.00                     19.51                    15.49
DI/SSI                           36.55                     20.07                    16.48
SSI                              34.81                     19.51                    15.30
Average                          35.65                     19.43                    16.22
Note: The number of CROW hours only reflects the direct workload of individuals working on the
Hearings. ODAR management could not determine how Original Hearing hours were calculated and
thus, could not determine if amounts reflected only direct labor.

In addition to hearing times, ODAR reduced travel times for the ALJs from 1.1 hours per
workday to 3.55 hours per month. ODAR used the original standard time values for the
remainder of FY 2010 and began implementing the revised standard time values in FY
2011. Given that CAS results are used for budgetary and management decision-
making, we find the use of known, faulty data to be inappropriate. Additionally, ODAR
did not formalize a scheduled, periodic review of these values to help ensure that future
CAS results reflect the status of operations. ODAR needs to establish a consistent
basis for review of its standard time values. When an organization uses standard
values in calculations, good practice dictates a periodic review of those values to ensure
Page 5 - Inspector General

currency. ODAR should establish a structured mechanism to trigger the periodic review
of standard time values. The triggers that should initiate a new CROW study are as
follows.

•   Major changes in the adjudications and support processes.
•   Technology improvements that significantly impact the adjudications and support
    processes.
•   Statutory changes that significantly impact the adjudications and support processes.
•   Specific time intervals – we recommend at least every 3 years or at a shorter interval
    ODAR feels is more appropriate.

ODAR’s use of overestimated standard times for hearings and ALJ travel time could
cause ODAR’s allocation rates between the programs and workloads to be incorrect.

OBJECTIVE 2: Review and Test Internal Controls over the Systems and
Applications ODAR Used That Were Ultimately Incorporated into CAS

Unlike field offices and disability determination services, ODAR's CAS submission
process does not incorporate work sampling. Instead, the ODAR Budget Office
prepares monthly spreadsheets that summarize ODAR workloads, payroll information,
and workyears. The Budget Office updates and submits the spreadsheets to OCASS
personnel who enter the information into CAS.

We traced three ODAR CAS submissions and provided both the ODAR Budget Office
and OCASS an internal control questionnaire. This questionnaire focused on the data
integrity of the spreadsheets.

The ODAR Budget Office has incorporated the following internal controls and checks to
ensure the validity and accuracy of the spreadsheets.

•   Files are automatically backed up each night.
•   Files are maintained on shared drives. Access to the shared drives requires access
    to the SSA network, which requires a password. Only ODAR budget personnel can
    access the shared drive.
•   Cells in the spreadsheets are not protected; however, three budget analysts update
    separate files and perform visual checks for results that differ significantly from
    historical trends (outliers). They investigate any outliers and verify associated
    formulas to determine whether calculation changes were made.
•   Formal reviews of the monthly CAS submissions were not documented; however,
    ODAR budget analysts perform informal quality reviews on each others’ work before
    submission to OCASS.
Page 6 - Inspector General

•   ODAR personnel send the finalized file to OCASS via SSA’s secured, internal email
    system.

OCASS personnel had incorporated the following internal controls in their processes

•   They verify input checks against payroll and workload data to ensure the data are
    consistent and accurate.
•   They maintain files on a protected shared drive that can only be accessed by
    OCASS personnel.
•   They perform a CAS comparison each month to ensure outputs are consistent.

Based on the results of the ODAR input testing as well as the responses to the internal
control questionnaire, we believe controls over the systems and applications used by
ODAR are operating effectively. However, the ODAR Budget Office relies on
spreadsheets to prepare and submit its monthly CAS inputs. Spreadsheets are
manually intensive and therefore inherently prone to error.

OBJECTIVE 3: Review the General Computer Control Environments Applicable to
ODAR

We performed a full scope application controls review of the CAS system. This type of
review involves tailored application controls testing as prescribed in the Government
Accountability Office’s (GAO) Federal Information System Controls Audit Manual
(FISCAM) 2. A full-scope application controls review focuses on the access controls,
data input, processing, and interface controls. As part of the FY 2010 Chief Financial
Officers Act of 1990 financial statement audit performed by Grant Thornton LLP we
analyzed, through inquiry, inspection and, observation, the documentation provided by
the Agency to assess the reliability of the data maintained within the CAS application.
Our analysis of the Agency’s entity-level control environment during the FY 2010
financial statement audit disclosed three deficiencies that, when aggregated, rose to the
level of a significant deficiency. Those deficiencies were as follows:

1. Policies and procedures to periodically reassess the content of security access
   profiles had not been complied with consistently throughout the Agency.
2. Security permissions provided to some employees and contractors exceeded the
   access required to complete their job responsibilities.
3. Certain mainframe configurations increased the risk of unauthorized access to key
   financial data and programs.


2
 GAO FISCAM, February 2009, Chapter 4. Evaluating and Testing Business Process Application
Controls.
Page 7 - Inspector General

The risks associated with these control deficiencies have a direct impact on the integrity
of the CAS application and database environments. For the other controls tested
related to CAS applications, we identified no exceptions.

OBJECTIVE 4: Review and Test ODAR’s Main Processes to Determine Whether
they Were Accurate, Complete, and Reliable

ODAR did not have a formalized review process for the monthly spreadsheets it
developed for input to CAS. However, ODAR budget analysts use workyear numbers
supplied by OCASS to ensure that spreadsheet total workyears tie back to the number
of workyears provided to them by OCASS and that all payroll and workload information
was incorporated. Per ODAR budget personnel, the goal is to match their monthly
workyear number to the number provided by OCASS, which is based on Agency payroll
data. We vouched without exception amounts in the CAS Input Summary Report to
underlying source documents such as the PayODS and workload reports for March,
June, and August 2010. In addition, we successfully traced data inputs from the CAS
Input Summary Report to the CAS submissions for March, June, and August of 2010.

ODAR did not conduct workload sampling to determine initial workload allocation.
Instead, ODAR applied standard time values to the workload count information from
CPMS/ARPS to determine the work hours by workload. ODAR then compared the
calculated total workhours to the control workyear figures OCASS provided. Any
difference between the calculated work hour and control workyear figure totals are then
prorated and applied back (that is, spread across) in proportion to the relative size of the
workloads. For example, if the calculated total work hour figures are off by 10 hours
from the control workyear figures, those 10 hours are weighted and applied back to the
direct workloads so the calculated work hour figure total equals the control workyear
total. The following table provides a numeric illustration of this calculation.

OCASS Workyears
         1,000.00

                       Workload Workload Workload Workload Workload
Category                  1        2        3        4        5                    Total
Workyears from
standard times            243.00       97.00     438.00      176.00       36.00     990.00
Distribute the 10
undistributed
workyears                    2.45       0.98        4.42       1.78        0.36      10.00
Total
workyears/workload        245.45       97.98     442.42      177.78       36.36   1,000.00
Page 8 - Inspector General

The portion of the 10 undistributed workyears assigned to each workload equals the
proportion of the 990 workyears that each workload represents. In the case of
Workload 1, that is:
                             243
                      10 ×       ≡ 2.45 rounded to 2 decimal places.
                             990
Because of the manner in which CAS calculates its results, we could only vouch
amounts at the aggregate level. As data run through the allocation and distribution
calculations in CAS, the individual data elements are organized and grouped in
different, non-comparable ways. However, at each phase in the calculation process,
data are also reported at the aggregate level, allowing users and managers to verify that
no data are lost in the process. Appendix C provides detailed tables and explanations
of our data vouching. Based on our review, we believe ODAR’s main processes were
accurate, complete, and reliable.

OBJECTIVE 5: Review and Test ODAR’s Data Inputs to the CAS to Determine
Whether they Were Accurate, Complete, and Reliable

Each month, OCASS personnel receive the Cost Analysis System Input Summary
Report from the ODAR Budget Office. ODAR manually inputs data from the Input
Summary Report into a monthly ODAR input sheet. Once the input summary report is
completed, an ODAR analyst compares the input sheet with the Input Summary Report.
Once the analyst validates that the information is accurate, the input sheet is uploaded
into CAS.

We traced data inputs from the CAS Input Summary Report to the CAS-generated input
sheets for March, July, and August 2010. Based on our review, and with the exception
of the outdated standard times described in Objective 1, ODAR’s data inputs into CAS
for the 3 months selected were accurate, complete, and reliable.

OBJECTIVE 6: Review and Test Various ODAR Cost Allocation Data Output
Reports

System output reports help end-users ensure data are processed correctly. The seven
reports we reviewed for March, July, and August 2010 were as follows:

1. ODAR’s Electronic Cost Report – Contains input level workloads, workyears, and
   average salaries by workload/function.
2. Pre-Input Cost Analysis (PICA) – Provides information by organization. CAS input
   report used to read raw data from several SSA systems.
3. Level 0 Report – CAS output report that provides input-level workload processed
   counts, workyears, and average weights by workload/function and costs by CAS
   object class.
Page 9 - Inspector General

4. C1 – 1235 – CAS output report that provides category workyears, payroll obligation
   and payroll costs per workyear for workload and staff functions by program activity
   for SSA components.
5. C2 – 15A Detail – CAS output report that provides cumulative monthly processed
   counts, workyears, payroll obligations and other object costs, unit costs, cost per
   workyear, and production rates by direct workload, program activity and SSA
   component.
6. C1 – 67 – CAS output report that provides obligations by program, activity
   component and major object class.
7. S3 –1 - CAS output report that provides a comprehensive source of total cost and
   unit cost data by direct workload. 3

To test for data consistency, we reviewed and analyzed the information in the output
reports for sudden fluctuations in data. In addition, the major data elements contained
in each of the reports were cross-referenced with one another and total cost information
from the Social Security Online Accounting and Reporting System, SSA’s accounting
system of record, to ensure the figures agreed. For the specific data reviewed and the
analysis performed relating to data consistency, please refer to Appendix C.

To test for data completeness, we compared the data elements tracked by ODAR/CAS
to data elements typically found in a well-established and comprehensive cost allocation
system. The purpose of the examination was to confirm that the output reports were
capturing and providing a complete picture of total workload and cost. See Appendix D
for the specific data reviewed and analysis performed relating to data completeness.

We determined that the cost and workload information remained consistent over the
past 9 years with no unexplainable data spikes or drops. Based on analysis of
ODAR/CAS reports, we determined that cost and workload information consistently
flowed from the initial ODAR electronic cost report through CAS and its output reports.
In all instances, our comparison of data at the aggregate level showed the same values
at all phases of the calculation process. See Appendix C for specific details. In
addition, the information in the ODAR/CAS reports provided information on all of the
data elements found in generally accepted cost and workload data elements in a well-
established cost allocation system.

Based on our review, ODAR’s data output reports from CAS for the 3 months selected
were consistent. However, because updated ODAR standard times did not go into
effect until FY 2011, we did not assess the impact that the updated standard times had
on ODAR’s output reports.

3
 GAO-03-273G Assessing the Reliability of Computer-Processed Data, July 2009, Section 2 (p. 4). Note:
                                                                 st    rd
We reviewed the FY output reports for 2001 through 2009 and the 1 and 3 quarters of FY 2010.
Page 10 - Inspector General

CONCLUSION AND RECOMMENDATIONS
OBJECTIVE 1: Determine Whether the Data SSA Management Collected and Used
in the Cost Allocation Process Were Valid and Accurate

We noted no exceptions during our testing of the data used in ODAR’s cost allocation
process; however, we found that standard time values used in its cost allocation
process were outdated and inaccurate. The original standard time values were
developed in the early 1980s, and the specific details regarding the rationale and
calculation of the standard time values were unclear as there is no documentation on
their development, and individuals who created them have long since retired.

ODAR Budget Office management reexamined their standard times. This
reexamination, called the CROW study, found that ODAR was overestimating ALJ travel
time as well as the time it took to conduct a hearing. Revised standard times will be
incorporated beginning in FY 2011.

We recommend that ODAR formalize a scheduled, periodic review of its standard time
values, to help ensure future CAS results reflect the current status of operations. We
suggest that reviews be scheduled every 3 years or at a shorter interval, if deemed
appropriate by ODAR staff. In addition to a scheduled review, ODAR should establish a
structured mechanism to trigger the periodic review of standard time values.
Technological improvements and statutory changes that significantly influence
adjudications and supporting processes should initiate a new CROW study.

OBJECTIVE 2: Review and Test Internal Controls over the Systems and
Applications ODAR Used That Were Ultimately Incorporated into CAS

Based on the results of our review, we believe ODAR’s controls over the systems and
applications were operating effectively. However, the ODAR Budget Office relied on
spreadsheets to prepare and submit its monthly CAS inputs. Spreadsheets are
manually intensive and are inherently prone to error.

We recommend the ODAR Budget Office develop a formalized monthly review process
of its CAS submission as part of its control structure. This formalized review process
should be consistent and documented. Having a formalized, consistent and well-
documented review process will help mitigate the impact of staff turnover and other
changes to ODAR’s processes.

OBJECTIVE 3: Review the General Computer Control Environments Applicable to
ODAR

We performed a full-scope application control review on CAS that focused on the
access controls, data input, processing, and interface controls. The FY 2010 financial
Page 11 - Inspector General

statement audit disclosed three deficiencies that, when aggregated, rose to the level of
a significant deficiency. The risks associated with these control deficiencies have a
direct impact on the integrity of the CAS application and database environments. For
the other controls tested related to CAS applications, we identified no exceptions.

OBJECTIVE 4: Review and Test ODAR’s Main Processes to Determine if they
Were Accurate, Complete, And Reliable

ODAR budget analysts use workyear numbers supplied by OCASS to ensure that total
workyears in the spreadsheet tie back to the number of workyears provided to them by
OCASS, and that all payroll and workload information is incorporated. Per ODAR
budget personnel, the goal is to match their monthly workyear number to the number
provided by OCASS, which is based on Agency payroll data. Based on our review, we
determined ODAR’s main processes were accurate, complete, and reliable.

OBJECTIVE 5: Review and Test ODAR’s Data Inputs to the CAS to Determine
Whether they Were Accurate, Complete, and Reliable

Each month, OCASS personnel receive the Cost Analysis System Input Summary
Report from the ODAR Budget Office. ODAR manually inputs data from the input
summary report into a monthly ODAR input sheet. Once the input sheet is completed,
an ODAR analyst compares the input sheet with the Input Report. Once the analyst
validates that the information is accurate, ODAR uploads the input sheet into CAS.
Based on our review and with the exception of the outdated standard times described in
Objective 1, ODAR’s data inputs to CAS were accurate, complete, and reliable.

OBJECTIVE 6: Review and Test Various ODAR Cost Allocation Data Output
Reports

System output reports help end-users ensure that data are processed correctly. Based
on our review, ODAR’s data output reports from CAS, for the 3 months selected, were
consistent. However, because updated ODAR standard times did not go into effect until
FY 2011, we did not assess the impact the updated standard times had on ODAR’s
output reports.

AGENCY COMMENTS
SSA determined that because of the interrelationship of all four CAS reviews, it was
premature to comment or respond to Grant Thornton’s recommendations. Once SSA
receives the results of all CAS reviews, it will provide consolidated comments and
responses to the recommendations.

The full text of SSA’s response can be found in Appendix E.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Office of Disability Adjudication and Review Cost Allocation Output
             Data Consistency Analysis
APPENDIX D – Office of Disability Adjudication and Review Cost Allocation Data
             Completeness Analysis
APPENDIX E – Agency Comments
                                                                     Appendix A

Acronyms
ALJ            Administrative Law Judge
ARPS           Appeals Review Processing System
BL             Black Lung
CAS            Cost Analysis System
CAT            Category
C.F.R.         Code of Federal Regulations
CPMS           Case Processing Management System
CPWY           Cost Per Workyear
CROW           Cost Reporting Office of Disability Adjudication and Review Workgroup
DataMart ODS   Data Mart Operational Data Store
DI             Disability Insurance
FISCAM         Federal Information System Controls Audit Manual
FY             Fiscal Year
GAO            Government Accountability Office
HI             Hospital Insurance
OCASS          Office of Cost Analysis and System Support
ODAR           Office of Disability Adjudication and Review
PayODS         Payroll Operational Data Store
PICA           Pre-Input Cost Analysis
PPWY           PPWY
RSI            Retirement and Survivors Insurance
SMI            Supplementary Medical Insurance
SSA            Social Security Administration
SSI            Supplemental Security Income
SSOARS         Social Security Online Accounting and Reporting System
WY             Workyear
                                                                      Appendix B

Scope and Methodology
Our objectives were to determine whether data Social Security Administration (SSA)
management collected and used in the Office of Disability Adjudication and Review
(ODAR) cost allocation process were valid and accurate and to review and test ODAR’s
internal controls, General Computer Control environments, main processes, and data
inputs and outputs to ensure they are were accurate, complete, and reliable.

To accomplish our objectives, we:

•   Met with analysts from the ODAR Budget Office as well as financial analysts in the
    Office of Cost Analysis and System Support (OCASS).
•   Examined and traced Cost Analysis System (CAS) Input Reports for March, June,
    and August 2010.
•   Obtained and analyzed ODAR output reports from CAS for Fiscal Years 2001
    through 2009 and the 1st and 3rd quarters of 2010, which included the (1) Electronic
    Cost Report, (2) Pre-Input Cost Analysis (PICA), (3) Level 0, (4) C1 – 1235, (5) C2 –
    15A Detail, (6) C1 – 67, and (7) S3 – 1.
•   Submitted an internal control questionnaire to ODAR and OCASS personnel to
    assess the controls surrounding the access and data integrity of their spreadsheets.
    As part of the FY 2010 financial statement audit, we performed a full-scope
    application control review of CAS. A full-scope application controls review involves
    modifying application controls testing as prescribed in the Government
    Accountability Office (GAO) Federal Information System Controls Audit Manual
    (FISCAM). A full-scope application controls review focuses on the access controls,
    data input, processing, and interface controls. FISCAM defines the following types
    of system-related controls:
    1. Application Level General Controls: These controls consist of general controls
       operating at the business process application level, including those related to
       security management, access controls, configuration management, segregation
       of duties, and contingency planning.
    2. Business Process Controls: These controls are directly related to individual
       computerized applications. They help ensure transactions are complete,
       accurate, valid, confidential, and available. Business process application
       controls include (1) programmed control techniques, such as automated edits,
       and (2) manual follow-up of computer-generated reports, such as reviews of
       reports identifying rejected or unusual items.




                                           B-1
    3. Interface Controls: These are controls over the timely, accurate, and complete
       processing of information between applications and other feeder and receiving
       systems and complete and accurate migration of clean data during conversion.
    4. Data Management System Controls: These controls are relevant to most
       business process applications because applications frequently use the features
       of a data management system to enter, store, retrieve, or process information,
       including detailed, sensitive information such as financial transactions, customer
       names, and Social Security numbers. Data management systems include
       database management systems, specialized data transport/communications
       software (often called middleware), data warehouse software, and data
       extraction/ reporting software. Data management system controls enforce user
       authentication and authorization, availability of system privileges, data access
       privileges, application processing hosted within the data management systems,
       and segregation of duties.

Through inquiry, inspection, and observation testing, including testing of source
documentation, we performed the following:

•   Reviewed reports and system documentation related to the CAS application.
•   Met with the appropriate SSA personnel to confirm our understanding of the CAS
    application.
•   Assessed technical user access to the CAS application Customer Information
    Control System front-end screens, user access to the production environment, and
    the CAS Monthly Run to determine whether workload productivity information was
    processed completely.
•   Observed the input procedures implemented for several significant workload
    processes: Monthly CAS Initialization, CAS/Social Security Online Accounting and
    Reporting System Interface, Field Component Input, program service center
    Component Input, and the Office of Disability and International Operations
    Component Input.
•   Observed key front-end screen fields to determine whether the Agency had
    adequate edit validation controls over manual data input.
•   Compared data elements from well-established and comprehensive cost allocation
    systems to data elements tracked by ODAR/CAS, such as output cost (by total and
    unit), and volume, as well as resource cost, volume, contribution and cost by
    workload category.

We determined that the computerized data used during our audit were sufficiently
reliable given our objectives, and the intended use of the data should not lead to
incorrect or unintentional conclusions.



                                           B-2
The entity reviewed for this audit was ODAR. We conducted our work at SSA
Headquarters in Baltimore, Maryland, from May through October 2010. We determined
the input and output reports related to ODAR were accurate, complete, and reliable.
We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                        B-3
                                                                                  Appendix C

Office of Disability Adjudication and Review Cost
Allocation Output Data Consistency Analysis
We analyzed the information in the Office of Disability Adjudication and Review (ODAR) cost
allocation output reports for irregularities (for example, unexplained fluctuations in data) over the
last 9 years. In addition, we compared the data elements (for example, volumes, workyears,
production rates, costs, and unit costs) in each report with one another and Social Security
Online Accounting and Reporting System reports to ensure consistency throughout the
ODAR/CAS reporting process. Tables C-1 through C-6, below, show the trend information that
was analyzed. Percentages and other metrics in these tables come from the end-of-year CAS
S3-1 report for the years indicated and include ODAR component costs only. The figures
shown are not burdened by other SSA headquarters components costs or workyears.

Table C-1 displays ODAR’s total costs (in terms of percentages) from 2001 through 2009 by
program activity.

                  Table C-1: Program Activity (Percent of Total ODAR Cost)
  Program Activity           FY01    FY02    FY03      FY04   FY05    FY06    FY07    FY08    FY09
 RSI                         0.6% 0.6% 0.6% 0.5% 0.7% 0.4% 0.5% 0.4% 0.3%
 DI                         52.8% 54.1% 55.1% 54.2% 54.1% 64.7% 65.5% 66.1% 66.3%
 SSI (Title 16)             35.7% 34.3% 34.0% 32.1% 35.1% 34.1% 34.0% 33.3% 33.2%
 HI                         *2.1% *2.6% *2.0% NA         NA     NA     NA     NA     NA
 SMI                        *8.8% *8.4% *8.3% NA         NA     NA     NA     NA     NA
 Activity Part D             NA     NA     NA     NA     NA     NA     NA     0.2% 0.2%
 Black Lung                  0.0% 0.0% NA         NA     NA     NA     NA     NA     NA
 Other Public Reimbursable 0.0% 0.0% 0.0% 4.4% 0.0% 0.0% NA                   NA     0.0%
 Health Care Reimbursable NA        NA     NA    *8.8% *10.1% *0.8% NA        NA     NA
                     Total 100.0% 100.0% 100.0% 100.0% 100.0% 100.0% 100.0% 100.0% 100.0%

*Before 2007, SSA (ODAR) performed Hearing Requests for HI/SMI. From 2004 through2006 SSA (ODAR)
allocated HI/SMI workloads (Hearing Requests) into program activity 13 (Health Care Reimbursable) as
reimbursable work for CMS.

After reviewing the total program activity cost percentages, we found no unexplainable spikes or
drops in data from 2001 through 2009.




                                                 C-1
Table C-2 displays ODAR’s total workyears (in terms of percentages) from 2001 through 2009
by program activity.

              Table C-2: Program Activity (Percent of Total ODAR Workyears)
  Program Activities        FY01     FY02    FY03      FY04   FY05   FY06    FY07    FY08    FY09
 RSI                        0.6% 0.6% 0.6% 0.5% 0.6% 0.4% 0.5% 0.4% 0.3%
 DI                        52.9% 54.2% 55.2% 56.9% 53.9% 64.8% 65.5% 65.7% 65.9%
 SSI (Title 16)            35.3% 34.1% 33.8% 33.8% 35.1% 34.0% 34.0% 33.6% 33.5%
 HI                        *2.2% *2.6% *2.0% NA         NA     NA     NA     NA     NA
 SMI                       *9.0% *8.5% *8.4% NA         NA     NA     NA     NA     NA
 Part D                     NA     NA     NA     NA     NA     NA     NA     0.3% 0.3%
 Black Lung                 0.0% 0.0% NA         NA     NA     NA     NA     NA     NA
 Health Care Reimbursable NA       NA     NA    *8.8% *10.4% *0.8% NA        NA     NA
                    Total 100.0% 100.0% 100.0% 100.0% 100.0% 100.0% 100.0% 100.0% 100.0%

*Before 2007, SSA (ODAR) performed Hearing Requests for HI/SMI. From 2004 through 2006 SSA (ODAR)
allocated HI/SMI workloads (Hearing Requests) into program activity 13 (Health Care Reimbursable) as
reimbursable work for CMS.

After we reviewed the total program activity workyear percentages, we found no unexplainable
spikes or drops in data from 2001 through 2009.




                                                 C-2
Table C-3 displays ODAR’s total costs by workload category for the 1st and 3rd quarters of 2010.

                           Table C-3: ODAR’s Total Cost by Workload
                                         (in millions)
                                                                      3rd QTR
                               1st QTR Total          Percent of                   Percent of
  Workload Category                                                  Total Cost
                                 Cost ($M)            Total Cost                   Total Cost
                                                                        ($M)
Category 1 (Direct
                                        $ 189               64.4 %        $ 206          62.0 %
Workload)
Category 2 (Workload
                                          $1                 0.2 %           $1           0.3 %
Related)
Category 3 (Indirect
                                          $9                 3.2 %          $ 16          4.9 %
Workload)
Category 4 (Leave)                       $ 45               15.3 %          $ 33         10.0 %
Category 5 (Staff and
                                          $3                 1.0 %           $6           1.6 %
Measureable Support)
Category 6 (Personnel)                  $ 247               84.1 %        $ 262          78.8 %
Category 7 (Other
                                         $ 46               15.9 %          $ 70         21.2 %
Objects)
                       Total            $ 293               100 %         $ 332           100 %

After reviewing ODAR’s total costs by workload category, we found no unexplainable spikes or
drops in data for the 1st and 3rd quarters of 2010.




                                                C-3
Table C-4 displays ODAR’s total cost individual workload from FY 2001 through 2009.

                 Table C-4: Workload Activity (Percent of Total ODAR Cost)
         Workloads                FY01 FY02 FY03 FY04 FY05 FY06 FY07 FY08 FY09
Part D Subsidy Applications       NA    NA     NA      NA     NA      NA     NA       0%      0%
RSI Hearing Requests               1%    0%     0%      0%     1%      0%     0%      0%      0%
DI Hearing Requests               28%   28%    29%     30%    29%     32%    32%     33%      32%
DI-SSI Hearing Requests           23%   24%    26%     28%    26%     36%    37%     37%      38%
SSI Hearing Requests              26%   25%    25%     25%    26%     24%    24%     24%      24%
Black Lung Hearing Requests        0%    0%     0%     NA     NA      NA     NA      NA       NA
HI Hearing Requests                2%    3%     2%      1%     1%      0%    NA      NA       NA
SMI Hearing Requests               9%    8%     8%      7%     9%      1%    NA      NA       NA
Part D Subsidy Appeals            NA    NA     NA      NA     NA      NA     NA       0%      0%
RSI Reviews Before Council         0%    0%     0%      0%     0%      0%     0%      0%      0%
DI Reviews Before Council          3%    4%     3%      3%     2%      2%     2%      2%      2%
DI-SSI Reviews Before Council      4%    4%     3%      3%     3%      3%     3%      2%      2%
SSI Reviews Before Council         4%    4%     4%      3%     3%      2%     2%      2%      2%
BL Reviews Before Council         NA     0%    NA      NA     NA      NA     NA      NA       NA
RSI Court Remands                  0%    0%     0%      0%     0%      0%     0%      0%      0%
DI Court Remands                   0%    0%     0%      0%     0%      0%     0%      0%      0%
DI-SSI Court Remands               0%    0%     0%      0%     0%      0%     0%      0%      0%
SSI Court Remands                  0%    0%     0%      0%     0%      0%     0%      0%      0%
RSI New Court Cases                0%    0%     0%      0%     0%      0%     0%      0%      0%
DI New Court Cases                 0%    0%     0%      0%     0%      0%     0%      0%      0%
DI-SSI New Court Cases             0%    0%     0%      0%     0%      0%     0%      0%      0%
SSI New Court Cases                0%    0%     0%      0%     0%      0%     0%      0%      0%
Part D Subsidy Redeterminations   NA    NA     NA      NA     NA      NA     NA       0%      0%
                          Total 100% 100% 100% 100% 100% 100% 100% 100% 100%

After reviewing the total cost per workload activity percentages, we found no unexplainable
spikes or drops in data from 2001 through2009.




                                              C-4
  Table C-5 displays ODAR’s total number of cases processed (in terms of percentages) by
  individual workload from 2001 through 2009.

                            Table C-5: Number of Cases (Processed Percent)
            Workloads                  FY01   FY02   FY03   FY04   FY05   FY06   FY07   FY08     FY09
Part D Subsidy Applications            NA     NA      NA    NA     NA     NA     NA       0%       0%
RSI Hearing Requests                     0%     0%     0%     0%     0%     0%     0%     0%       0%
DI Hearing Requests                     20%    21%    21%    22%    23%    25%    25%    23%      24%
DI-SSI Hearing Requests                 16%    17%    19%    20%    18%    26%    28%    26%      28%
SSI Hearing Requests                    18%    18%    19%    18%    20%    18%    18%    17%      17%
Black Lung Hearing Requests              0%     0%     0%   NA     NA     NA     NA     NA       NA
HI Hearing Requests                      2%     2%     2%     1%     1%     0%   NA     NA       NA
SMI Hearing Requests                     8%     7%     8%     7%     9%     0%   NA     NA       NA
Part D Subsidy Appeals                 NA     NA      NA    NA     NA     NA     NA       3%       2%
RSI Reviews Before Council               0%     0%     0%     0%     0%     0%     0%     0%       0%
DI Reviews Before Council                4%     5%     4%     4%     3%     3%     3%     3%       2%
DI-SSI Reviews Before Council            5%     4%     4%     4%     4%     4%     4%     4%       4%
SSI Reviews Before Council               6%     6%     5%     4%     4%     4%     3%     3%       3%
BL Reviews Before Council                0%     0%     0%   NA     NA     NA     NA     NA       NA
RSI Court Remands                        0%     0%     0%     0%     0%     0%     0%     0%       0%
DI Court Remands                         0%     1%     1%     1%     0%     0%     0%     0%       0%
DI-SSI Court Remands                     0%     1%     0%     1%     0%     0%     0%     0%       0%
SSI Court Remands                        0%     0%     0%     0%     0%     0%     0%     0%       0%
RSI NEW COURT CASES                      0%     0%     0%     0%     0%     0%     0%     0%       0%
DI New Court Cases                       1%     1%     1%     1%     1%     1%     1%     0%       0%
DI-SSI New Court Cases                   1%     1%     1%     1%     1%     1%     1%     1%       1%
SSI New Court Cases                      1%     1%     1%     0%     0%     0%     0%     0%       0%
Part D Subsidy Redeterminations        NA     NA      NA    NA     NA     NA     NA       0%       0%
Other Public Reimbursable              NA     NA      NA    NA     NA     NA     NA     NA       NA
Adjudicative Process Quality             1%     1%     1%     1%     1%     1%     0%     0%       0%
Public Inquiries                        17%    14%    13%    15%    15%    17%    17%    20%      19%
                               Total   100%   100%   100%   100%   100%   100%   100%   100%     100%

  After reviewing the total number of cases processed (percentage of total count), we found no
  unexplainable spikes or drops in data from 2001 through 2009.



                                                     C-5
   Table C-6 displays ODAR’s unit costs by individual workload from 2001 through 2009.

                               Table C-6: Unit Cost Per Workload Activity
Workloads                      FY01     FY02   FY03     FY04   FY05    FY06     FY07    FY08     FY09
Part D Subsidy Applications     NA       NA     NA       NA     NA       NA      NA      $447     $152
RSI Hearing Requests           $1,409 $1,250 $1,313 $1,433 $1,450 $1,552 $1,663 $1,733 $1,730
DI Hearing Requests            $1,316 $1,212 $1,271 $1,378 $1,421 $1,475 $1,610 $1,674 $1,634
DI-SSI Hearing Requests        $1,384 $1,262 $1,323 $1,432 $1,487 $1,525 $1,664 $1,745 $1,707
SSI Hearing Requests           $1,327 $1,207 $1,265 $1,371 $1,406 $1,480 $1,602 $1,675 $1,631
Black Lung Hearing Requests    $1,252 $1,009 $1,014      NA     NA       NA      NA       NA      NA
HI Hearing Requests            $1,104 $1,005 $1,054 $1,198 $1,129 $2,310         NA       NA      NA
SMI Hearing Requests           $1,087 $1,049 $1,080 $1,180 $1,088 $1,653         NA       NA      NA
Part D Subsidy Appeals          NA       NA     NA       NA     NA       NA      NA        $82    $121
RSI Reviews Before Council     $1,017   $810    $897    $976    $990    $888     $949 $1,035      $924
DI Reviews Before Council       $680    $724    $810    $820    $817    $758     $857    $750     $743
DI-SSI Reviews Before
Council
                                $751    $767    $836    $844    $813    $772     $870    $757     $761
SSI Reviews Before Council      $627    $720    $789    $799    $793    $743     $835    $725     $707
BL Reviews Before Council       NA      $231    NA       NA     NA       NA      NA       NA      NA
RSI Court Remands               $684    $617    $768    $861 $1,089 $1,084 $1,167        $941     $784
DI Court Remands                $551    $493    $571    $631    $746    $649     $737    $619     $591
DI-SSI Court Remands            $590    $524    $609    $663    $788    $683     $769    $642     $626
SSI Court Remands               $561    $506    $589    $651    $781    $682     $769    $635     $624
RSI NEW COURT CASES             $507    $546    $650    $676 $1,072     $933 $1,005      $692     $693
DI New Court Cases              $349    $347    $407    $494    $595    $599     $673    $557     $525
DI-SSI New Court Cases          $417    $398    $430    $517    $620    $622     $692    $556     $559
SSI New Court Cases             $383    $383    $425    $517    $621    $629     $698    $611     $548
Part D Subsidy
Redeterminations
                                NA       NA     NA       NA     NA       NA      NA      $166      $72
Other Public Reimbursable       NA       NA     NA       NA     NA       NA      NA       NA      NA
Adjudicative Process Quality    NA       NA     NA       NA     NA       NA      NA       NA      NA
Public Inquiries                NA       NA     NA       NA     NA       NA      NA       NA      NA


   After reviewing the unit costs by workload activity, we found no unexplainable spikes or drops in
   data from 2001 through 2009.




                                                  C-6
ODAR and CAS Output Report Comparison

Report Comparison Objective

To compare the data elements (for example, volumes, workyears, production rates, costs, and
unit costs) that are presented in the ODAR and CAS reports with one another and cost
information in SSOARS to ensure consistency throughout the cost allocation process.

Table Explanation

The report comparison table lists the data elements in the different reports across the top of the
table and lists the type of reports (by organization) down the left side of the table.

•   An (M) in a green box means that the individual and/or total figures for the corresponding
    data element match between reports.
•   An asterisk (*) in a pink box means that the corresponding data element is shown at a
    different stage of the cost allocation process (that is, Level 0, 1, 2, or 3) in that report and
    therefore will not match some of the other reports.

Example

In Table C-7 below, there is an “M” in the “Open Pending” column for both the electronic cost
report and the PICA report. The “M” means that both reports contain the open pending data
element and the individual and/or total figures listed in each report match each other.

As mentioned above, some reports display different levels of detail of cost and workload
information. Because of that variation, some individual figures will not align, but at the
aggregate level the total figures (for example, program activity, workload category, overall
ODAR) still trace. In those instances, an (M) was still given for that comparison.




                                                  C-7
                  Table C-7: ODAR and CAS Output Report Comparison
                                                        Data Elements
  Reporting
 Organization    Open                Processed/         Close           Avg                         Unit
                          Receipts                               WY            PPWY   Cost   CPWY
                Pending                Count        Pending             Sal.                        Cost

ODAR

 Elec. Cost
                  M          M           M               M        M     M      NA     NA     NA     NA
 Report

CAS

 PICA             M          M           M               M        M     NA      M     NA     NA     NA

 Level 0          NA        NA           M               NA       M     M      NA     NA     NA     NA

 C1-1235          NA        NA           M               NA       M     NA      *      *      *      *

 C2-15A           NA        NA           M               NA       M     NA      M      M      *      *

 C1-67            NA        NA          NA               NA       M     NA     NA      M     NA     NA

 S3-1             NA        NA           M               NA       M     NA      *      M      *      *

SSOARS            NA        NA          NA               NA      NA     NA     NA      M     NA     NA




                                                  C-8
                                                                       Appendix D

Office of Disability Adjudication and Review
Cost Allocation Data Completeness Analysis
Generally Accepted Cost and Workload Data Elements Comparison

We compared the information collected by the Office of Disability Adjudication and
Review (ODAR) and Cost Analysis System (CAS), in the reports, to generally accepted
cost and workload data elements to determine whether sufficient and appropriate cost
allocation output information was being captured and displayed. The specific reports
reviewed are below.

•   Electronic Cost Report – Provides input level workload (open pending, receipts,
    processed, and close pending counts), workyears, and average salaries by
    workload/function for ODAR.
•   Pre-Input Cost Analysis - Contains raw data from several different SSA computer
    systems and is displayed by CAS organization, component workload, and month.
    This report is used to read data into the CAS.
•   Level 0 - Presents input level workload processed counts, workyears, and average
    weights by workload/function and costs by CAS sub-object class.
•   C1 – 1235 - Provides by category, workyears, payroll obligations, and payroll costs
    per workyear for workload and staff functions by program activity for SSA and its
    components.
•   C2 – 15A Detail - Provides cumulative monthly processed counts, workyears, payroll
    obligations and other object costs, unit costs, cost per workyear and production rates
    by direct workload, program activity and organization for SSA components.
    Provides separately, staff workyear and cost expenditures and associated other
    objects costs by staff function.
•   C1 – 67 - Details obligations by program activity, component, and major sub-object
    class. This report is used to monitor adherence to appropriation and allotment limits
    and SSA’s internal limitations and component operating or spending plans.
•   S3 – 1 - Presents total workyears and costs, including staff, by direct workload and
    program activity for components and SSA. This report provides comprehensive
    source of total cost and unit cost data by direct workload.




                                           D-1
Table D-1 displays the seven generally accepted data elements, a description of each
element, and the corresponding ODAR/CAS element or term. Table D-2 displays the
results of the comparison.

Table D-1: Generally Accepted Data Elements v. ODAR/CAS Terminology Crosswalk

Generally Accepted                                                         ODAR/CAS
                                        Description
  Data Element                                                            Terminology

1. Output Cost (Total)   The total cost of individual outputs.       Total cost

2. Output Cost (Unit)    The cost of producing one output.           Unit cost

3. Output Volume         The number of outputs produced.             Count
                         The cost of the resource(s) involved with   Cost Per Workyear
4. Resource Cost
                         producing an output.                        (CPWY)
                         The number of resources it takes to
5. Resource Volume                                                   Workyear (WY)
                         produce an output.
                         The total resource contribution by          Workload category
6. Resource
                         workload category (e.g., direct workload,   (CAT) by program
Contribution
                         indirect workload).                         activity
7. Resource Cost by      The cost of resources per workload
                                                                     CPWY by workload CAT
   Workload Category     category.




                                               D-2
       Table D-2: Generally Accepted Data Elements v. ODAR/CAS Comparison


                                    ODAR                        CAS Reports
 Expected Data      ODAR/CAS         Elec.
   Element            Term           Cost
                                    Report              Level    C1-     C2-   C1-    S3-
                                               PICA
                                                          0     1235     15A   67      1

Output Cost
                  Total cost          NA           NA                              
(Total)
Output Cost
                  Unit cost           NA           NA    NA                   NA     
(Unit)

Output Volume     Count                                                    NA     

Resource Cost     CPWY                NA           NA    NA                   NA     

Resource
                  WY                                                             
Volume
                  Workload CAT
Resource
                  by program                           NA                         
Contribution
                  activity

Resource Cost
                  CPWY by
by Workload                           NA           NA    NA                   NA     
                  workload CAT
Category

After reviewing the data elements in the ODAR-CAS report, we found the reports
provided information on all of the data elements typically found in a well-established and
comprehensive cost allocation system.




                                             D-3
                                                                                          Appendix E

           Agency Comments




                                          SOCIAL SECURITY
MEMORANDUM

Date:      March 31, 2011                                                             Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Office of Disability Adjudication and Review
           Cost Allocation Process” (A-15-10-20150)--INFORMATION


           Thank you for the opportunity to review the subject draft report. In your May 4, 2010 start
           notice, you indicated you would be conducting four separate reviews of our Cost Analysis
           System (CAS). This is the second in your series of four reports.

           Because of the interrelationship of all four reviews, we determined at this time it is premature to
           comment or respond to your recommendations. Once we receive the results of all your CAS
           reviews, we will provide consolidated comments and responses to your recommendations.

           Thank you for the opportunity to review the draft report. Please let me know if we can be of
           further assistance. You may direct staff inquiries to Frances Cord at (410) 966-5787.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
